Office of Inspector General




                        March 20, 2006

                        LYNN MALCOLM
                        VICE PRESIDENT, CONTROLLER

                        WILLIAM P. TAYMAN, JR.
                        MANAGER, CORPORATE FINANCIAL PLANNING

                        SUBJECT: Management Advisory – Cost Reduction
                                 Programs (Report Number MS-MA-06-001)

                        This report presents the results of our review of the U.S.
                        Postal Service’s cost reduction programs (Project Number
                        06BG002MS000). We determined whether Postal Service
                        efficiencies and cost savings are appropriately factored into
                        the ratemaking process and how Postal Service managers
                        are required to achieve planned efficiencies. Senator
                        Charles E. Grassley, Chairman, Senate Finance
                        Committee, requested this review.

                        Postal Service cost reduction programs were appropriately
                        factored into rate case R2005-1 and were comparable to
                        cost reduction programs in Postal Service budgets. The
                        budget process requires managers to achieve planned
                        efficiencies and cost savings. As part of the budget
                        process, workhour reductions from cost reduction programs
                        are factored into the Postal Service budgets. Cost reduction
                        programs were reviewed during rate case R2005-1 and they
                        were comparable to cost reduction programs in prior rate
                        cases.

                        Management reviewed a draft copy of this report. We
                        incorporated their suggested changes into this final report.
Cost Reduction Programs                                                         MS-MA-06-001



Background                When the Postal Service needs to change domestic postal
                          rates and fees, it submits a request to the Postal Rate
                          Commission (Commission). The Commission, an
                          independent agency separate from the Postal Service,
                          reviews the request in public proceedings and makes
                          recommendations to the Postal Service Board of Governors.
                          A Postal Service request to change numerous postal rates
                          and mail classifications is known as an omnibus rate case.

                          The Commission's rules of practice describe the supporting
                          data and information the Postal Service must file with rate
                          and classification requests. In general, the Postal Service is
                          required to report its latest operating results and to provide
                          its best estimate of future revenues and costs.

                          The Postal Reorganization Act of 1970 established the
                          basic principles on which the Postal Service sets rates. The
                          primary requirement is that the Postal Service attains a
                          financial “break even.” For a rate case, the break even
                          requirement is applied for a single prospective year —
                          known as the test year — a fiscal year beginning not more
                          than 24 months subsequent to the filing date of the rate
                          case. To estimate its test year revenue needs, the Postal
                          Service identifies a recently concluded fiscal year as a base
                          period, adjusts the historical results through an intermediate
                          period, and rolls the results forward to arrive at an estimate
                          of the test year revenue requirement. For omnibus rate
                          case Docket No. R2005-1 (R2005-1), the base year was
                          fiscal year (FY) 2004, the intermediate period was FY 2005,
                          and the test year was FY 2006.

                          During rate case proceedings, the Postal Service presents
                          actual and projected efficiencies and cost reduction
                          programs that it estimates will result in significant future cost
                          savings. The cost reduction programs reduce total costs in
                          the intermediate and test year. In rate case R2005-1, the
                          Postal Service presented 42 cost reduction programs with
                          an estimated cost savings of $1.3 billion in FY 2005 and
                          $1.3 billion in FY 2006. Most of the cost reduction programs
                          involved savings from automation and other equipment.
                          See Attachment A for a description of the cost reduction
                          programs. Attachment B lists savings for each cost
                          reduction program.




                                             2
Cost Reduction Programs                                                                             MS-MA-06-001




                                 Two Postal Service offices have a role in developing,
                                 validating, and presenting the cost reduction estimates. The
                                 Capital and Program Evaluation group reviews Decision
                                 Analysis Reports1 containing cost reduction programs and
                                 the controller validates them as part of the Postal Service
                                 investment review and approval process. Additionally,
                                 when preparing an omnibus rate case, the Corporate
                                 Financial Planning group collects the cost reduction
                                 program data and presents the data during ratemaking
                                 proceedings.

Objectives, Scope,               Our objectives were to determine whether Postal Service
and Methodology                  efficiencies and cost savings were appropriately factored
                                 into the ratemaking process and how Postal Service
                                 managers are required to achieve planned efficiencies.

                                 We examined FYs 2005 and 2006 Postal Service cost
                                 reduction programs presented in rate case R2005-1. To
                                 determine whether Postal Service efficiencies and cost
                                 savings were appropriately factored into the ratemaking
                                 process, we compared cost reduction programs in rate case
                                 R2005-1 to cost reduction programs in the FY 2005 and
                                 2006 Postal Service budgets. We also compared cost
                                 reductions in rate case R2005-1 to cost reductions identified
                                 in prior rate cases.

                                 To determine how managers are required to achieve
                                 planned efficiencies, we compared cost reduction program
                                 workhour reductions in rate case R2005-1 with workhour
                                 reductions in the FY 2005 and 2006 Postal Service budgets.

                                 We conducted this review from November 2005 through
                                 March 2006 in accordance with the President’s Council on
                                 Integrity and Efficiency, Quality Standards for Inspections.
                                 We discussed our observations and conclusions with
                                 management officials and included their comments where
                                 appropriate.




1
  A Postal Service document prepared by the requiring organization which justifies why a major investment should be
approved. Generally, all major capital investments exceeding $5 million require a Decision Analysis Report.




                                                         3
Cost Reduction Programs                                                                          MS-MA-06-001




Prior Audit Coverage            We did not identify any prior audits or reviews related to the
                                objectives of this review.

Savings Were                    Postal Service cost reduction programs were appropriately
Appropriately                   factored into the ratemaking process:
Factored into Rate
Case R2005-1                             o Cost reduction programs presented in rate case
                                           R2005-1 were comparable to cost reduction
                                           programs in Postal Service budgets.

                                         o The Commission reviewed and updated cost
                                           reduction programs in rate case R2005-1.

                                         o Cost reduction programs in rate case R2005-1
                                           were comparable to cost reduction programs in
                                           prior rate cases.

Rate Case Programs              Table 1 lists ten cost reduction programs in rate case
in Budget                       R2005-1 that were not itemized in the FY 2005 or 2006
                                Postal Service budgets. There were three reasons why
                                management did not itemize these programs in the budgets:

                                1. Five programs were combined with other cost reduction
                                   initiatives in the budget; therefore, the workhour reduction
                                   goals were incorporated into those programs.

                                2. There are timing differences between filing the rate
                                   case and developing the budget. Rate case R2005-1
                                   was filed in April 2005, while the FY 2006 budget was
                                   developed in June 2005. Between April and June 2005,
                                   three programs had schedule changes that eliminated
                                   the estimated FY 2006 workhour reductions that had
                                   been filed with rate case R2005-1. The omission of
                                   these workhour reductions did not have a material impact
                                   on the budgets.2

                                3. Two programs were one-time events that
                                   reduced/eliminated costs in FY 2005.




2
 Workhour reductions for the three programs totaled 578,000 workhours, while the FY 2006 budget was about
1.4 billion workhours.

                                                       4
Cost Reduction Programs                                                                                 MS-MA-06-001




                                              Table 1. Cost Reduction Programs Not in Budget

                                          Combined With Other Cost Reduction Programs in Budget

                                             o   Receipt and Dispatch Unloaders
                                             o   Three-Digit Scheme for Flats
                                             o   Skin Sacks Reduction Program
                                             o   Periodicals Cost Reduction Initiative
                                             o   Breakthrough Productivity Initiative (Inventory Red)

                                          Timing Differences Between Rate Case and Budgets

                                             o   Automated Package Processing System – Phase 2
                                             o   Singulation, Scan, Induction Unit Video Code
                                             o   Human Capital Enterprise/Human Resources Shared Services

                                          One-Time Events That Eliminate/Reduce Costs

                                             o   AMTRAK Termination
                                             o   Emergency Preparedness Plan


Cost Reduction                     The Commission reviewed and updated the cost reduction
Programs Were                      programs in rate case R2005-1 and made two adjustments
Reviewed During                    to them. First, the Commission made a total $2.9 million in
Rate Case R2005-1                  adjustments to the $1.3 billion FY 2005 estimate and the
                                   $1.3 billion FY 2006 estimate. The adjustments were the
                                   result of updating cost-of-living-allowance and contract
                                   estimates with actual data. The second adjustment to cost
                                   reduction programs was a correction of savings associated
                                   with the “Skin Sack” Cost Reduction Savings. The workhour
                                   savings for the program were not fully developed when the
                                   rate case was filed in April 2005 and the savings were not
                                   fully incorporated at that time. The Commission
                                   incorporated the latest savings estimates, resulting in a
                                   $1.2 million adjustment to the cost reduction programs.

Cost Reduction                     Cost reduction programs in rate case R2005-1 were
Programs Were                      comparable to cost reduction programs in prior rate cases.3
Comparable to Prior                In rate case R2005-1, total estimated FY 2005 cost reduction
Rate Cases                         programs of $1.3 billion were 1.8 percent of the total
                                   estimated FY 2005 costs of $72.6 billion. Table 2 shows that
                                   cost reduction programs averaged about 1 percent of total
                                   test year costs in prior rate cases.




3
    We compared test year cost reduction programs. In rate case R2005-1, the test year was FY 2006.

                                                          5
Cost Reduction Programs                                                               MS-MA-06-001




                          Table 2. Cost Reduction Programs in Prior Rate Cases

                                               Cost           Test Year       Cost Reductions
                           Rate Case*       Reductions       Total Costs     as a Percentage of
                                             (millions)        (millions)        Total Costs

                           R71-1               $160.0          $12,091.6             1.32
                           R77-1                272.3           15,634.0             1.74
                           R80-1                312.0           21,858.1             1.43
                           R84-1                115.5           28,068.6             0.41
                           R87-1                363.0           37,346.5             0.97
                           R90-1                251.9           46,205.8             0.55
                           R94-1                645.4           52,597.1             1.23
                           R97-1                931.0           60,546.5             1.54
                           R2000-1              653.9           67,824.9             0.96
                           R2001-1              496.7           72,013.5             0.69

                           Average:                                                  1.01
                           R2005-1            $1,332.9         $72,636.2             1.84

                          * Cost reduction programs were not identified in rate cases R74-1,
                          R76-1, and R83-1.


Achieving Planned         The Postal Service budget process requires managers to
Efficiencies              achieve planned efficiencies and cost savings. Management
                          factors workhour reductions from the cost reduction
                          programs into field operational budgets as part of the Postal
                          Service budget process. Management also incorporates
                          estimated workhour savings from the cost reduction
                          programs into the budgets and adjusts the estimate during
                          the budget year. Typically, they adjust budgets to account
                          for cost reduction program operational changes and
                          scheduling changes.

                          Cost reduction program workhour savings presented in rate
                          case R2005-1 were comparable to workhour reductions
                          factored into the FYs 2005 and 2006 budgets. Differences
                          between the rate case and budget data were traced to timing
                          differences and updated assumptions.




                                               6
Cost Reduction Programs                                                      MS-MA-06-001




                          We appreciate the cooperation and courtesies provided by
                          your staff during the review. If you have any questions or
                          need additional information, please contact Robert Mitchell,
                          director, Marketing, or me at (703) 248-2300.

                             E-Signed by Mary Demory
                          ERIFY authenticity with ApproveI




                          Mary W. Demory
                          Deputy Assistant Inspector General
                           for Headquarters Operations

                          Attachments

                          cc: Steven R. Phelps




                                            7
Cost Reduction Programs                                                         MS-MA-06-001




APPENDIX A. DESCRIPTION OF COST REDUCTION PROGRAMS
Breakthrough Productivity Initiatives. Various initiatives and actions by the
field and headquarters to achieve savings in addition to specific operational
programs. The savings are achieved through implementation of standardized
field operations procedures and information systems resulting in increased
efficiencies in operational functions, reductions in administrative functional areas,
and more efficient transportation utilization.

Emergency Preparedness Plan. Irradiation equipment that did not meet Postal
Service needs was transferred to other agencies in the base year (FY 2004).
This charge for disposition of property and other machine related expenses
(depreciation, operating, labor) were removed from FY 2005 costs.

Postal Automated Redirection System – Phase I. Improves the way that the
Postal Service processes Undeliverable-as-Addressed (UAA) mail.

Amtrak Termination. The Postal Service and Amtrak terminated their business
relationship at the end of FY 2004. As a result, Amtrak-related expenses after
the base year will be zero.

Automated Postal Center. An interactive self-service kiosk that offers postal
products and services comparable to those offered at the counter.

Flat Recognition Improvement Program. Enhances the address recognition
technology used in flat mail automation equipment.

Letter Recognition Enhancement Program. Enhances the handwritten and
machine-print address recognition technology used in letter mail automation
equipment.

Automated Package Processing Systems. Purchases of machines designed
to replace the older, labor-intensive small parcel and bundle sorters in larger
offices.

Flats Identification Code Sort. Enhances the automation features of the
automatic flat sorting machines by adding the capability to place a label and print
an identification tag on all non-barcoded flat mail that is processed on the
machine.

Breakthrough Productivity Initiative-Inventory Reduction Program. The
second initiative focuses on reducing the replenishment costs of maintenance
spare parts and supplies in field maintenance stock rooms.




                                          8
Cost Reduction Programs                                                       MS-MA-06-001



Point-of-Service One – Stage 3. Continues deployment of a Point-of-Sale
System that is replacing the Integrated Retail Terminals.

Labor Scheduler – Phase 1. Improves the current labor scheduling process
which is a time-consuming, largely manual process.

Delivery Bar Code Sorter (DBCS) Stacker Modules. Provides DBCS stacker
modules and supporting sweepside tray carts for existing machines at postal
facilities.

Facility Single-Source Provided Program. Improves the efficiency of the
facilities management organization.

Decision Analysis Report Impact From New Facilities. Facility modernization
program. As new facilities are activated, the costs and benefits that justified the
capital investment are incorporated in the operating budget.

Optical Character Reader Enhancements for Letter Automation. Purchases
new DBCS machines and installs modifications to existing DBCS, advanced
facer canceller system, and remote computer reader equipment.

Skin Sack Reduction Program. Modifies mailing standards to no longer allow
the preparation of certain sacks within Periodicals that contain fewer than the
established minimum of 24 pieces. Operational savings will be achieved through
a significant reduction in sacks which will result in a reduction in the labor
associated with processing these sacks.

Field Material Handling Systems. This program is a consolidation of site
specific capital requests for material handling equipment.

Low Cost Tray Sorters. Deployed to support material handling operations in
postal plants.

Automatic Flat Sorting Machine Feeder Enhancements. Upgrades the
feeders on operational and training machines.

Three-Digit Scheme for Flats. Changes the preparation of flat-shaped mail by
allowing three-digit bundles to contain multiple three-digit ZIP Codes that align
with sort plans.

Automatic Flats Tray Lidders. Deployed automatic flats tray lidders for use in
dispatch operations nationwide.

Remote Encoding Center Consolidation – Phase 4. As the technology for
computerized resolution of addresses improves, the percentage of mail requiring
manual keying at the remote encoding centers is reduced.



                                         9
Cost Reduction Programs                                                        MS-MA-06-001




Mail Processing Infrastructure – Phase 2. Upgrades the existing mail
processing data networks at postal facilities.

Flat Remote Encoding System. Standardizes and improves the efficiency of
the video encoding operations being performed at remote encoding centers.

Integrated Dispatch and Receipt Program. Combines the acquisition of
machines for dispatching and receiving operations with integrated tray transport
systems.

Advanced Facer Canceller System Improvements. Improves the performance
of letter mail cancellation equipment by providing double feed detection and
cancellation upgrades for all 1,086 advanced facer canceller system machines.

Surface Visibility – Surface Air Support System Phase III. Deploys scanners
and related infrastructure to track mail handling units, containers, and trailers
through the surface transportation system.

Intelligent Mail Data Acquisition System Mobile Data Collection Device
Replacements. Replaces existing data collection devices used by postal
carriers and clerks with intelligent mail devices.

Automatic Tray Handling System for Automatic Flat Sorting Machines.
Adds an automatic tray handling system to operational and training machines.

Wide Field of View Camera. Replaced aging wide area bar code reader
systems used on all barcode sorting equipment with 11,266 wide field of view
camera systems.

Singulation, Scan, Induction Unit. Equipment deployment to postal facilities,
deployment was completed in August 2003 and final residual savings were
captured in FY 2005.

Mail Evaluation, Readability, and Lookup INstrument – Phase 2. Automates
the verification of Bulk Business Mail to ensure that mailing preparation
requirements are met.

Postal Automated Redirection System – Phase II. Covers the implementation
for handling UAA mail in the remaining postal facilities. Expected to begin in late
FY 2006.

Automatic Induction Systems for Automatic Flat Sorting Machines.
Automates the preparation and feeding of flat mail on automated flat sorting
machines.




                                        10
Cost Reduction Programs                                                         MS-MA-06-001



Automatic Tray Handling System for Automatic Flat Sorting Machines –
Phase 2. Adds an automatic tray handling system on additional automatic flat
sorting machines. Deployment is expected to begin at the completion of Phase I
deployment in May 2006.

Receipt and Dispatch Unloaders. Automates the unloading of trays from mail
transport equipment, thus improving the efficiency of platform operations.

Automated Package Processing Systems – Phase 2. Purchases and deploys
machines at the conclusion of the Phase 1 deployment.

Singulate, Scan, Induction Unit Video Codes. Automates parcel processing
by adding video coding capability to the singulation, scan, induction units.

Airline Receiving Concourse and Trayline System. Provides for the design,
fabrication, and installation of a totally reconfigured airline receiving concourse
including a mail tray takeaway transport conveyor (trayline) at the New York
International Service Center.

Periodicals Cost Reduction Initiative. A management objective over the next
12 to 18 months to aggressively reduce the processing and transportation costs
associated with the handling of Periodicals mail.

Human Capital Enterprise/Human Resources Shared Services. Replaces
outdated human resources technology with a state-of-the-art, vendor-supported,
fully integrated system.




                                         11
      Cost Reduction Programs                                                  MS-MA-06-001



                        APPENDIX B. COST REDUCTION PROGRAM IMPACTS
                                                                            2005          2006
                      Cost Reduction Programs (proposed)                   (millions)    (millions)

Breakthrough Productivity Initiatives                                      $738.2        $619.4
Emergency Preparedness Plan                                                  97.5           0.0
Postal Automated Redirection System – Phase I                                86.1          15.5
AMTRAK Termination                                                           46.4           0.1
Automated Postal Center                                                      45.3          44.4
Flats Recognition Improvement Program                                        36.3          20.5
Letter Recognition Enhancement Program                                       30.4          39.4
Automated Package Processing System                                          29.8         107.1
Flat Identification Code Sort                                                20.7          36.6
Breakthrough Productivity Initiative (Inventory Reduction)                   20.0           0.0
Point-of-Service One – Stage 3                                               19.3           0.0
Labor Scheduler Phase 1                                                      17.9           7.2
Delivery Bar Code Sorter Stacker Modules                                     16.6           1.3
Facility Single Source Provider Program                                       9.0           5.8
Decision Analysis Review Impact from New Facilities                           8.2          18.7
Optical Character Reader Enhancements for Letter Automation                   7.9          24.4
Skin Sack Reduction                                                           7.1          15.2
Field Material Handling System                                                6.0           6.1
Low Cost Tray Sorters                                                         5.1           0.0
Automated Flat Sorter Machine Enhancements                                    4.9           0.0
Three-Digit Scheme for Flats                                                  4.1           6.3
Automatic Flats Tray Lidders                                                  3.9           0.1
Remote Encoding Center Consolidation – Phase 4                                3.7           4.5
Mail Processing Infrastructure – Phase 2                                      3.5           2.6
Flat Remote Encoding System                                                   2.6           8.5
Integrated Dispatch and Receipt Systems                                       2.1          30.3
Advanced Facer Canceller System Improvements                                  1.0           5.3
Surface Visibility – Surface Air Support System Phase III                     0.9          45.3
Intelligent Mail Data Acquisition System-Mobile Data Collection Device        0.8           5.4
Automatic Tray Handling System for the Automated Flat Sorter Machine          0.5          29.5
Wide Field of View Camera                                                     0.4           0.0
Singulate, Scan, Induction Unit                                               0.1           0.0
Mail Evaluation, Readability, and Lookup INstrument – Phase 2                 0.1           0.0
Postal Automated Redirection System-Phase II                                  0.0          18.8
Automatic Induction System for the Automated Flat Sorter Machine              0.0          20.6
Automatic Tray Handling for the Automated Flat Sorter Machine – Phase 2       0.0            .2
Receipt and Dispatch Unloaders                                                0.0           6.8
Automated Package Processing System – Phase 2                                 0.0          17.6
Singulate, Scan, Induction Unit Video Code                                    0.0           4.1
Airline Receiving Concourse and Trayline System                               0.0           4.7
Periodicals Cost Reduction Initiative                                         0.0         150.0
Human Capital Enterprise/Human Resources Shared Services                      0.0          10.8

Totals: (May not sum due to rounding)                                     $1,276.3      $1,332.9




                                               12
